No.20-1249
Irr the

Supreme Corlrt ofthe United States
i
GARY VICTOR DUBIN,

Petitioner,
v
OFFICE OF DISCIPLINARY COUNSEL,

Respondent.
()

PROOF OF SERVICE
FOR MOTION AND BRIEF OF AMICUS CURIAE
SUBMITTED BY PETITIONERS CLIENTS
IN SUPPORT OF PETITION FOR
WRIT OF CERTIORARI
r)

GARvVIcToR DUsIN
Counsel of&ecord

DusrN Law Ornrcps
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (so8) 537-2300
Facsimile: (sos) 523-7733
Cellular: (eos) 392-9191
-Mail:
gdubin@dubinlaw.net
E

Attorney for Client Amici

PROOF OF SERVICE

I hereby certify that forty true

and correct complete copies of the Motion For

Leave To File An Amicus Brief together with the Brief of Amicus Curiae and its
Appendix were all duly fiIed by Federal Express today March 22, 2021, sent to the

Clerk of the Court and electronically submitted today March 22, 202I to the United
States Supreme Court fiIing Website, and that same were duly served today, March
22, 2O2I, also by email transmission (one copy) and by U.S. Mail (three copies) to
Respondent's counsel, as follows:

Clare E. Connors, Esq.
Department of the Attorney General
425 Queen Street
Honolulu, Hawaii 96813
Telephone: (aog) 586'1282
Facsimile: (808) 586-1239

E'Mail: clare.e.connors@hawaii. gov
Attorney General of the State of Hawaii
William J Plum, Esq.
Post Office Box 3503
Honolulu, Hawaii 96811
Telephone: (sog) 528'0050
E -Mail: wplum@plumlaw.com
Special Counsel to Respondent ODC

Hamilton Phillips Fox, III, Esq.
515 Fifth Street, NW, Room 117, Bldg. A
Washington, DC 20001
Telephon e: (zoz) 638' 1 501
E'Mail foxp@dcodc.org
Special Counsel to Respondent ODC

DATED: Honolulu, Hawaiii March 22,2021
Duhin
/s/ Garv
GARY VICTOR DUBIN
Counsel of Record

